AVIATION INDUSTRY PERFORMANCE
   A Review of the Aviation Industry in 2008

            Number: CC-2009-039

           Date Issued: May 6, 2009
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Aviation Industry Performance                                     Date:    May 6, 2009
           A Review of the Aviation Industry in 2008

  From:    David A. Dobbs                                                              Reply to
                                                                                       Attn. of:   J-2
           Deputy Inspector General

    To:    The Secretary
           Acting Federal Aviation Administrator
           Acting Assistant Secretary for Aviation and International Affairs

           This report provides a comprehensive analysis of aviation industry trends in 2008 1
           and their impact on aviation system performance, demand and capacity for
           domestic and international flights, and air service in small communities. 2

           Unprecedented fuel prices in the first three quarters of 2008 followed by a
           worsening global economic recession drastically impacted the airline industry,
           with $5.8 billion 3 in operating losses for the year and multiple bankruptcies.
           Airlines responded to the dramatic shift in their operating environment by cutting
           flights, raising airfares, and tapping into ancillary sources of revenue. As a result
           of these trends, domestic passenger traffic (measured in Revenue Passenger Miles,
           or RPM) 4 declined by approximately 10 percent in the fourth quarter of 2008,
           compared to the fourth quarter of 2007. Preliminary data on international
           passenger traffic to and from the United States indicate a 7-percent decline in the
           last 3 months of 2008 after having grown by 5 percent in the first half of the year.
           One positive outcome of reduced service and ridership in the second half of 2008
           was fewer flight delays and improved on-time performance.

           Airlines anticipate further declines in domestic and international passenger
           demand as a result of the ongoing economic downturn. Consequently, they have

           1
               Unless otherwise specified, all data presented are on a calendar-year basis.
           2
               This report is the 10th in a series of periodic updates on aviation industry trends issued by our office. The
               performance metrics are based on data collected and processed by the Department of Transportation’s Office of
               Aviation Analysis, Bureau of Transportation Statistics, Office of Airline Information, and Federal Aviation
               Administration. OIG reports are available on our website: www.oig.dot.gov.
           3
               Operating performance for leading network, low-cost, and regional airlines. See exhibit A for complete list of
               airlines included in this analysis.
           4
               See exhibit C for a glossary of commonly used terms, including Revenue Passenger Miles (RPMs).


           CC-2009-039                                                i
announced further service reductions in 2009 and have resorted to lowering
airfares to stimulate demand until those capacity cutbacks can be implemented.

Airlines Reduced Flights, Raised Airfares, and Introduced New Fees in 2008
In response to the worsening economy, volatile fuel prices, and the resulting
operating losses in 2008, airlines took aggressive measures to generate operational
savings. By November 2008, airlines had implemented capacity cutbacks that
eliminated roughly 13 percent of domestic scheduled flights and associated seat
miles compared to November 2007. These measures significantly affected air
service and airports of all sizes across the country and brought the number of
scheduled flights down to levels last seen in 2002.

To achieve savings through service cuts, airlines grounded approximately
376 aircraft 5 systemwide—mainly the less fuel-efficient models in their fleets—
and laid off about 37,000 airline employees. Non-stop service in domestic long-
distance markets also declined as airlines started routing these passengers on
connecting flights through their hub airports.

From the beginning of 2008 through the July 2008 peak in fuel prices, airlines
initiated several fare increases. Average airfares increased between 9 percent and
16 percent in the third quarter of 2008, compared to the third quarter of 2007,
depending on the length of the flight (see table A). The average all-inclusive price
of air travel increased further as airlines began charging fees for ancillary services
such as checking bags, selecting seats, and using on-board pillows and blankets.
                                    Table A. Airfares by Flight Length
                            Flight Length                  Average Airfares
                         (Average Distance)                                            Change
                                                          3Q 2008       3Q 2007
                     Short (≈ 300 miles)                    $142           $122           16%
                     Medium (≈ 1,000 miles)                 $183           $168            9%
                     Long (≈ 1,500 miles)                   $232           $208           11%
                     Source: Department of Transportation
                     Note: Airfare data do not include fees for checked bags and other
                           ancillary services.

Reduced Service Options Resulted in Diminished Service to Small
Communities
Air service to small communities came under a lot of pressure during 2008.
Airlines operating scheduled air services to small communities were either forced
to eliminate the smaller aircraft from their fleets or ceased flight operations
altogether due to the financial strain put on them by high fuel prices and operating

5
    Includes aircraft grounded by network, low-cost, and regional carriers. See exhibit A for complete list of airlines
    included in this analysis.


CC-2009-039                                                 ii
losses. While few communities lost all air service due to the cuts in scheduled
flights, many small- and medium-sized communities saw a reduction in their
access to hub airports. However, only 76 of all 667 of the Nation’s airports
receiving scheduled air service lost more than half of the air carriers serving their
communities.

Small community (non-hub) airports saw the biggest impact, with a 16-percent
decline in available seats for non-
                                              Figure A. Regional Changes in
hubs, 6 compared to an 11-percent          Available Seats at Non-Hub Airports,
nationwide decline.       From a                  Nov. 2008 vs. Nov. 2007
regional perspective, non-hub
                                         West                                 Midwest
airports in the Northeast and            -14%                                  -23%
Midwest      lost    the    highest
percentages of available seats as
shown in figure A. The reduction
in scheduled flights also affected
                                                                                  Northeast
some large airports, which lost a                                                   -29%
high percentage of flights as
airlines downsized their secondary      South
hubs. For example, Los Angeles           -11%
International, Cincinnati, Kansas
                                      Source: Federal Aviation Administration
City, and Oakland saw declines in
their domestic departures of between 25 and 30 percent.

Overall, 54 small communities lost all air service at some point in 2008, although
two-thirds of those only lost service temporarily during a transition from one
Essential Air Service (EAS) carrier to another. The EAS program, which
guarantees air service to eligible small communities, experienced many challenges
in 2008 when key EAS contracting carriers decided to either cease operations or
reduce the number of small (18 seat) aircraft in their fleets. 7

A significant increase in the number of communities vying for replacement air
service along with a reduction in the number of airlines willing to provide this
service led to lengthy interruptions in service at some airports. As a result, the
Department of Transportation was forced to negotiate replacement contracts at
much higher subsidy costs due to higher fuel prices, fewer economically viable
aircraft, and fewer airlines available to bid on contracts. Consequently, the


6
    Analysis based on FAA classification of airports: Non-hub airports enplane less than 0.05 percent of system-wide
    passengers. Small-hub airports enplane more than 0.05 percent but less than 0.25 percent of system-wide
    passengers. Medium-hub airports enplane more than 0.25 but less than 1 percent of system-wide passengers.
    Large-hub airport enplane more than 1 percent of system-wide passengers.
7
    Air Midwest, Skyway Airlines, and Big Sky Airlines, all of whom provided lift to the EAS program decided to cease
    operations in 2008. Colgan Airlines eliminated most of the 18-seat aircraft from its fleet.


CC-2009-039                                               iii
Department expects program costs to increase from $109 million in fiscal year
(FY) 2008 to $160 million in FY 2009.

Service Cutbacks and Higher Airfares Caused Decline in Passenger Traffic
Although airlines were able to save on operating costs through service reductions,
the cutback in flights also reduced passengers’ service options. This, combined
with the effect of the economic recession and higher airfares, led to domestic
passenger traffic declining in the second half of 2008 after remaining relatively
unchanged in the first half of the year. By the end of 2008, domestic passenger
ridership (measured in RPMs) declined by approximately 10 percent (compared to
the fourth quarter of 2007) to the lowest levels since 2004 (see figure B).
                           Figure B. Domestic Passenger Traffic, 2008 vs.
                                  2007 and 2002 (RPMs in Billions)

                            60
                            55
                            50
                            45
                            40
                            35
                            30
                            25                              ct
                                      pr




                                                            p
                                                           ug
                                n




                                                             l




                                                                                      ec
                                       b




                                                            n




                                                           ov
                                      ar



                                     ay



                                                          Ju


                                                         Se
                             Ja

                                    Fe




                                                       Ju




                                                         O
                                    A
                                    M




                                                                                     D
                                    M




                                                         A




                                                         N

                                                2002          2007         2008


                          Source: Bureau of Transportation Statistics

Flight Delays Declined Significantly Following Reduced Flight and
Passenger Activity
The record rate of flight delays in 2007 continued into the first 6 months of 2008
but fell to 22 percent in the last 6 months as airlines began cutting scheduled
flights (compared to 27 percent in 2007). However, we identified six larger, more
congested airports that continued to see above-average rates of delays toward the
end of 2008—ranging from 27 to 37 percent—compared to the average rate of
21 percent for the remaining 49 airports tracked by the Federal Aviation
Administration (FAA). Below, figure C shows the trend of delay rates for all
55 FAA-tracked airports, and figure D shows the 2008 rate of delays at the
6 larger airports. 8 Finally, the average length of a delayed flight in the second half
of 2008 did not improve from the second half of 2007 and remained at 55 minutes.




8
    FAA tracks the number and rate of flight delays at 55 airports across the National Airspace System.


CC-2009-039                                                 iv
    Figure C. Rate of Delayed Flights at                       Figure D. Rate of Delayed Flights at
 55 Major Airports, 2008 vs. 2007 and 2002                    Congested Airports, 4th Quarter 2008
40%                                                                            0%   10%           20%           30%          40%

30%                                                        New York - Newark

                                                              New York - JFK
20%
                                                                     Miami
10%
                                                               San Francisco

 0%                                                                  Atlanta
      n




                                           ct

                                                 v
                                                      c
                                       p
                               l
                 ar
           b




                              n
                  r
                 ay




                              g
                            Ju                            New York Laguardia
               Ap




                                                No
                                      Se




                                                     De
  Ja
          Fe




                          Ju


                           Au



                                           O
               M


               M




                   2002        2007              2008                               Average rate for the other 49 airports
                                                                                      tracked by the FAA (21 percent)

Source: Federal Aviation Administration                    Source: Federal Aviation Administration

   At the request of the House Subcommittee on Aviation, our office recently
   initiated an audit that will:

      • evaluate further the impact of airline decisions to reduce flight schedules on
        the delays and performance of the National Airspace System,

      • analyze the delay problem specifically in the New York region and its
        corresponding effect across the country,

      • examine progress in implementing the 77 initiatives emphasized by the New
        York Aviation Rulemaking Committee for reducing delays in New York, and

      • highlight impacts from airline changes on travelers and airports.

   We expect to report our results later this year.




   CC-2009-039                                            v
                                                                                       1


                          TABLE OF CONTENTS

IMPACT OF FUEL CRISIS AND ECONOMIC RECESSION
ON AIRLINES’ FINANCIAL CONDITION….………….………………. 1


MEASURES IMPLEMENTED BY AIRLINES HAVE
IMPACTED AIR SERVICE ACROSS THE NATIONAL
AIRSPACE SYSTEM…...................................................................... 4


AIRLINE SERVICE CUTS, HIGHER AIRFARES, AND
CONCERNS OVER THE ECONOMY ALSO LED TO A
DECLINE IN AIR TRAFFIC……………..……………..……….……… 12


CUTBACKS IN SCHEDULED FLIGHTS ALSO LED TO
FEWER FLIGHT DELAYS AND CANCELLATIONS………….......... 16


EXHIBIT A. SCOPE AND METHODOLOGY……………………...... 19


EXHIBIT B. LIST OF FIGURES AND TABLES ……………….….... 22


EXHIBIT C. GLOSSARY OF COMMONLY USED TERMS….……. 24


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT.……... 27




CC-2009-039
                                                                                                                                                                    1


IMPACT OF FUEL CRISIS AND ECONOMIC RECESSION ON
AIRLINES’ FINANCIAL CONDITION
During the second half of 2008 the aviation industry faced an extremely
challenging economic environment. A deepening economic recession led to an
increasingly uncertain revenue outlook for the industry as passengers altered their
demand for air services. The present crisis was preceded by a dramatic shift in the
industry’s operating costs as fuel prices soared to unprecedented highs in the first
half of 2008. The combined impact of the high price of fuel followed by the
downturn in the economy led to multiple bankruptcies, service cessations, and a
general deterioration of the airline industry’s creditworthiness.

Jet Fuel Prices Surged in the First Half of 2008 Before Normalizing in
the Second Half in Response to the Global Economic Crisis
During the first half of 2008, jet fuel prices surged to historical highs, peaking in
July at an average price of $3.89 per gallon, an 81-percent increase over July 2007
(see figure 1 below). Fuel prices normalized in the second half of the year,
declining to an average price of $1.26 per gallon by February 2009.

                                             Figure 1. Jet Fuel Prices, Jan. 1998 through Feb. 2009
                              $4.50
                                                                                                                       Avg. price
                              $4.00
 U.S. Gulf Coast Spot Price




                                                                                                                      $3.89/gallon
                              $3.50                                                                                    July 2008
                              $3.00                         Avg. price
                                                           $2.14/gallon
        ($/gallon)




                              $2.50                                                     Avg. price
                                                            July 2007
                                                                                       $1.26/gallon
                              $2.00
                                                                                      February 2009
                              $1.50

                              $1.00

                              $0.50

                              $0.00
                                    98



                                               99



                                                          00



                                                                     01



                                                                                02



                                                                                           03



                                                                                                      04



                                                                                                                 05



                                                                                                                              06



                                                                                                                                         07



                                                                                                                                                    08



                                                                                                                                                               09
                                 n-



                                            n-



                                                       n-



                                                                  n-



                                                                             n-



                                                                                        n-



                                                                                                   n-



                                                                                                              n-



                                                                                                                           n-



                                                                                                                                      n-



                                                                                                                                                 n-



                                                                                                                                                            n-
                              Ja



                                         Ja



                                                    Ja



                                                               Ja



                                                                          Ja



                                                                                     Ja



                                                                                                Ja



                                                                                                           Ja



                                                                                                                        Ja



                                                                                                                                   Ja



                                                                                                                                              Ja



                                                                                                                                                         Ja




Source: Energy Information Administration

According to data reported by airlines to the Bureau of Transportation Statistics
(BTS) airline fuel costs increased by $16.5 billion during the first three quarters of
2008. As a result, fuel costs accounted for roughly 37 percent of the industry’s
operating costs and actually replaced labor as the largest component of the
industry’s cost structure. The increase in fuel cost per available seat mile (CASM)
more than eliminated any other operating cost savings that many airlines had
achieved by restructuring their operations after the September 11, 2001, terrorist
attacks.
The Energy Information Administration (EIA) projects that future fuel prices will
be driven mainly by the depth and duration of the global economic downturn, the

CC-2009-039
                                                                                                                                                   2


pace and timing of the recovery, and the supply of crude oil. The EIA is
forecasting that fuel prices will continue to be depressed in 2009 in response to
continued softness in the demand for crude oil resulting from the ongoing global
economic recession. Prices are forecasted to begin rebounding in 2010, following
a global economic recovery.

Airlines Suffered Significant Losses as Airfare Revenues Did Not
Keep Up With Increasing Fuel Costs and Air Travel Declined
The increases in fuel prices and the economic recession impacted all components
of the aviation industry—both major network and low-cost carriers—and affected
airlines’ cash flow and creditworthiness.

Overall, in 2008, the industry reported operating losses totaling $5.8 billion. Of
this amount, airlines incurred:

     • $4.4 billion in the first three quarters of 2008. This was due to high fuel prices
       and aggressive fuel hedging 9 by certain airlines, which resulted in airlines
       struggling to recoup rising operating Figure 2. Airline Operating Revenue vs.
       costs through higher airfares.                       Expenses ($ in Billions)
     • $1.4 billion in the fourth quarter of
                                                                        $45

                                                                        $40                                                4Q08
       2008, when passenger traffic began                                                                                Expenses
                                                                        $35                                             $32.7 billion
       waning as a result of the global
                                                                        $30
       economic crisis.
                                                                        $25
                                                                                                                             4Q08
As a result of these heavy losses,                                      $20                                               Revenues
                                                                                                                         $31.3 billion
10 carriers sought bankruptcy protection,                               $15

and 11 carriers ceased all flight                                       $10

operations. 10 Prior to the fourth quarter of
                                                                                                                         06
                                                                                                                              06

                                                                                                                                   07
                                                                                                                                         07
                                                                                                                                              08
                                                                                                                                                   08
                                                                         01

                                                                               02
                                                                                    02
                                                                                          03
                                                                                               03
                                                                                                    04

                                                                                                         04
                                                                                                              05
                                                                                                                   05


                                                                                                                            3Q

                                                                                                                                 1Q
                                                                                                                                        3Q
                                                                                                                                             1Q
                                                                                                                                                  3Q
                                                                       3Q

                                                                              1Q
                                                                                   3Q
                                                                                        1Q
                                                                                             3Q

                                                                                                  1Q
                                                                                                       3Q
                                                                                                            1Q
                                                                                                                 3Q
                                                                                                                      1Q




2007, the industry had experienced six                                                   Operating Revenues                   Operating Expenses

consecutive quarters of operating profits                              Source: Office of Secretary of Transportation – Airline
                                                                                Quarterly Financial Review
totaling $11.8 billion (see figure 2).

Impact on Major Network Carriers
American, United, US Airways, and Continental reported operating losses of
$2.1 billion, $1.7 billion, $1.8 billion, and $378 million, respectively, in 2008.
Further, Northwest reported a loss of $541 million before its merger with Delta in
October 2008. Delta was the only network carrier to report an operating profit in
2008 ($56 million) as shown in figure 3 below. Delta’s operating performance

9
     “Fuel hedging” is a contractual tool used by some airlines to stabilize jet fuel costs. A fuel hedge contract commits
     an airline to paying a pre-determined price for future jet fuel purchases. Airlines enter into such contracts as a bet
     that future jet fuel prices will be higher than current prices or to reduce the turbulence of confronting future expenses
     of unknown size. If the price of jet fuel falls and the airline hedged for a higher price, the airline will be forced to pay
     an above-market rate for jet fuel.
10
     Eight of the airlines that ceased operations did so after attempting to restructure under bankruptcy protection.

CC-2009-039
                                                                                                                                                                                         3


               was bolstered by its emergence from bankruptcy in April 2007, which allowed it
               to streamline operating costs. Delta also benefited by shifting capacity into
               growing international markets.
     Figure 3. Select Carrier 2008                                          Impact on Low-Cost Carriers
  Operating Profit/Loss ($ in Millions)                                     Low-cost carriers’ operating performance varied
                                                                            as shown in figure 3. For instance, Southwest
                                      (72)                  AirTran         Airlines reported operating profits totaling
                                             (23)           Alaska
                                                                            $449 million for 2008. JetBlue also reported an
     (2,054)                                                American
                                                                            $85 million operating profit in 2008, while
                              (378)                         Continental
                                                                    a       Frontier and AirTran reported operating losses
                                             56             Delta
                                      (87)
                                                                            of $87 million and $72 million respectively.
                                                            Frontier
                                             85             JetBlue
                                                                        b   Impact on Airlines’ Cash Flow and
                            (541)                           Northwest
                                                                            Creditworthiness
                                                    449     Southwest
                                                                            Higher fuel prices in the first three quarters of
          (1,747)                                           United
          (1,773)                                           US Airways
                                                                            2008 followed by significant declines in
                                                                            passenger traffic put a lot of pressure on airlines’
                                                                            cash positions. Many were forced to borrow, by
(3




               (2




                           (1




                                             0




                                                          1,
  ,0




                 ,0




                             ,0




                                                             00
    00




                   00




                               00




                                                               0




                                                                            committing unencumbered assets and other
      )




                     )




                                 )




Source: Department of Transportation.
a
                                                                            forms of collateral, to maintain adequate levels
  Includes operating results for Northwest from
  October 30 through the end of 2008 due to merger.
                                                                            of cash to support operations (see figure 4
b
   Financial results through October 29, 2008.                              below).

               Although the cash raised by the airlines did improve the industry’s liquidity in the
               short run, it deteriorated to roughly
               15.6 percent by the end of 2008. 11       Figure 4. Industry Liquidity and Leverage
               Meanwhile, industry leverage saw
                                                        30%                                            12.39x  14.0
                                                                                 Total Liquidity/Revenues




               a sharp deterioration between the



                                                                                                                                                                                             Total Debt/Total Equity
                                                               25.4%
                                                                                          23.9%
                                                        25%           22.7%                                    12.0
                                                                             21.5% 20.3%
               second quarter of 2007 and the                                                    18.8%         10.0
                                                        20%
               fourth quarter of 2008.          The                                                            8.0
                                                        15%                                              15.6% 6.0
               deterioration in airlines’ liquidity
                                                        10%                                                    4.0
               and leverage positions affected the            1.47x  1.40x   1.30x 1.85x 2.14x
                                                         5%                                      3.02x         2.0
               industry’s overall creditworthiness
                                                         0%                                                    0.0
               as the debt ratings for most airlines
                                                                                                                   7

                                                                                                                              7

                                                                                                                                         7


                                                                                                                                                    8

                                                                                                                                                               8

                                                                                                                                                                          8

                                                                                                                                                                                     8




               (including Southwest Airlines)
                                                                                                                '0

                                                                                                                           '0

                                                                                                                                      '0


                                                                                                                                                 '0

                                                                                                                                                            '0

                                                                                                                                                                       '0

                                                                                                                                                                                  '0
                                                                                                            2

                                                                                                                       3

                                                                                                                                  4


                                                                                                                                             1

                                                                                                                                                        2

                                                                                                                                                                   3

                                                                                                                                                                              4
                                                                                                            Q

                                                                                                                       Q

                                                                                                                                  Q


                                                                                                                                             Q

                                                                                                                                                        Q

                                                                                                                                                                   Q

                                                                                                                                                                              Q




               were downgraded during 2008.                              Liquidity          Leverage
                                                                                 Source: Security and Exchange Commission
                                                                                 Note: Total liquidity defined as total available cash (cash + short
                                                                                         term investment + balance available to be borrowed under
                                                                                         a revolving line of credit)




               11
                    A decline in a carrier’s liquidity ratio indicates that it has less cash available to support its ongoing flight operations.
                    Historically, larger airlines often filed for bankruptcy when liquidity approached or dipped below 15 percent.

               CC-2009-039
                                                                                                                    4


Considering current market conditions, the scarcity of unencumbered assets, and
the industry’s deteriorating creditworthiness, raising capital in the near future, if
necessary, will be a daunting task for airlines.

MEASURES IMPLEMENTED BY AIRLINES HAVE IMPACTED AIR
SERVICE ACROSS THE NATIONAL AIRSPACE SYSTEM
During the fall of 2008, airlines responded to the fuel crisis and economic
recession by cutting flights and costs, raising fares and tapping into ancillary
sources of revenues. By November 2008, airlines had implemented capacity
cutbacks that eliminated roughly 13 percent of domestic scheduled flights and
associated seat miles compared to November 2007. The biggest impact of the
service reductions was seen in the form of reduced frequencies between many
small- and medium-sized communities and their connecting hubs and a decrease in
non-stop service in domestic, long-distance markets as airlines started routing
passengers through their hub airports. These measures significantly affected
airports and aircraft of all sizes and brought the number of scheduled flights to its
lowest levels in the last 9 years.

Many airlines operating scheduled air services to small communities were either
forced to eliminate the smaller aircraft from their fleets or ceased flight operations
altogether due to the financial strain put on them by high fuel prices. Passenger
demand is expected to continue to slide in 2009. Consequently, airlines
announced further reductions in flights and have resorted to lowering airfares in an
effort to stimulate demand until the new capacity cuts are implemented. This will
further reduce air service across the National Airspace System as well as service to
small communities.

Airline Capacity Cutbacks
In September 2008, airlines began cutting capacity. Data for the last 3 months of
2008 show a 10.7-percent decline in year-over-year available seat miles (ASMs).
These cuts brought capacity down       Figure 5. Changes in Domestic Capacity,
to levels last seen in 2002 when      2008 vs. 2007 and 2002 (ASMs in billions)
the industry was still recovering
                                     70
from the September 11, 2001,         65
terrorist attacks (see figure 5).    60

                                       55
Legacy carriers recorded the
                                       50
deepest cuts in domestic air
                                       45
service during the fall of 2008.       40
Between November 2007 and
                                           n




                                                                                                        ov

                                                                                                               ec
                                                                                            ep


                                                                                                  ct
                                                 b




                                                                          n
                                                      ar




                                                                   ay




                                                                                     ug
                                                                                l
                                                            pr




                                                                              Ju
                                        Ja

                                               Fe




                                                                        Ju




                                                                                                 O
                                                     M

                                                           A




                                                                                                       N

                                                                                                              D
                                                                                           S
                                                                  M




                                                                                    A




November 2008, six of seven                                2002                     2007                     2008

legacy carriers cut domestic
                                      Source: Bureau of Transportation Statistics
flights between 13 and 17 percent


CC-2009-039
                                                                                                                                    5


(see figure 6). 12 Only Northwest Airlines remained relatively unchanged. The
low-cost carriers, as a group, registered approximately a 4-percent reduction in
flights, with most individual carriers reporting only single-digit declines in flights;
however, Spirit Airlines cut domestic flights by 11 percent.
                       Figure 6. Change in Scheduled Flights for Legacy and
                            Low-Cost Carriers, Nov. 2008 vs. Nov. 2007




                                                                           US

                                                                         Co
                                   So




                                                                          Am lt a
                            No




                                                                            nt
                                                                             Ai
                                   Fr
                                   ut

                                   Je
                               r




                                    Ai




                                                                               Al
                                                                               in

                                                                               Un




                                                                                er
                              th




                                                                                rw
                                     on
                                      hw




                                                                                 Sp
                                       tB




                                                                                  en




                                                                                  De
                                       rtr




                                                                                  as




                                                                                  ic
                                        w




                                                                                   ite
                                                                                   ay
                                         tie
                                          lu
                                          es




                                          an

                                                                                     iri




                                                                                     an
                                                                                     ta
                                           es




                                                                                      ka
                                                                                       s




                                                                                       d
                                             e

                                             r




                                                                                         t




                                                                                         l
                                             t
                                              t
                             0%
                                    -1%       -2%
                                                      -3%
                             -5%
                                                             -6%
                                                                        -7%
                            -10%
                                                                                -11%
                                                                                       -13% -13%
                            -15%                                                                     -14%
                                                                                                            -15%
                                                                                                                      -17%   -17%

                            -20%

                        Source: Federal Aviation Administration

Airline Cuts in Long-Distance Service
Airlines cut service in markets of all distances. However, flights in long-haul
markets experienced the greatest decline (see figure 7 below). Although more
convenient for passengers, long-haul, non-stop flights were cut to save operating
costs. Airlines accommodated affected passengers by connecting them through
hub airports. The loss of service in some long-haul markets also reflects the
decision of ExpressJet Airlines to terminate its short-lived attempt to start service
under its own brand to link long-haul markets between medium-sized cities.
                                   Figure 7. Change in Scheduled Flights by
                                     Flight Distance, Nov. 2008 vs. Nov. 2007
                                                (Distance in Miles)
                                          Short-Haul                    Medium-Haul                  Long-Haul
                                   0%




                               -10%
                                                            -12%         -12%
                                          -13%                                         -13%

                                                                                                    -17%          -17%
                               -20%
                                                                                       9



                                                                                                     9



                                                                                                                  0
                                                        9



                                                                       9
                                          9




                                                                                    49



                                                                                                  49



                                                                                                               00
                                                      49



                                                                     99
                                        24




                                                                                 1,



                                                                                               2,



                                                                                                            7,
                                                    to



                                                                   to
                                    to




                                                                                to



                                                                                           to



                                                                                                         to
                                                  0



                                                                 0
                                    0



                                               25



                                                              50



                                                                             0



                                                                                           0



                                                                                                        0
                                                                           00



                                                                                         50



                                                                                                      50
                                                                         1,



                                                                                       1,



                                                                                                    2,




                              Source: Federal Aviation Administration


12
     This analysis is based on the airlines’ branded system, including regional airline flights operated under the brand of a
     network airline. Legacy and low-cost carriers are defined in exhibit C.

CC-2009-039
                                                                                                                    6


Impact of Airline Cutbacks on Aircraft Usage
The cutbacks in scheduled air service affected aircraft of all sizes except regional
jets in the 71- to 100-seat category. Domestic scheduled flights on all other
aircraft experienced double-         Figure 8. Change in Scheduled Flights by
digit declines in November             Aircraft Size, Nov. 2008 vs. Nov. 2007
2008      as   compared     to     45%
November 2007 (see figure 8).      30%
                                                            29%

                                                 15%
However, scheduled flights            0%
using 71- to 100-seat regional      -15%                                              -11%
                                             -15%                -15%                             -16%
jets were up 29 percent year-                          -17%
                                                                                                             -23%
                                    -30%
over-year. The growth of the                           p       -70          0        70          50         00
                                            ton     pro et 35        71
                                                                        -10      1- 1        1- 2       1- 3
larger regional jets reflects the       Pis     rb o     J        et         t 10        t 17       t 25
                                              u        l       l J         e           e          e
                                             T       na      na           J          J           J
relatively recent introduction                    gio     gio
                                              Re      Re
of aircraft in this size class and
                                   Source: Federal Aviation Administration
a strategic choice by airlines to Note: Number ranges in figure 8 represent number of seat
use these fuel-efficient aircraft ranges for that aircraft.
to serve markets that were
previously serviced by older narrow body jets, which were less fuel efficient.

Impact of Airline Cutbacks at Major Airports
All major airports experienced a decline in domestic service between November
2007 and November 2008. For example, large airports in Atlanta, Denver,
Detroit, Washington, D.C., Newark, and San Francisco experienced declines
ranging from 2 percent to 5 percent, in scheduled flight activity. Conversely, large
airports in Los Angeles, Cincinnati, and Oakland reported reductions in flight
activity of 22 percent, 27 percent, and 28 percent, respectively (see figure 9
below).




CC-2009-039
                                                                             7


               Figure 9. Capacity Changes at Major Airports,
                    November 2008 vs. November 2007

          -30%     -20%     -10%       0%          10%

                                                         Atlanta
                                                         Baltimore
                                                         Boston
                                                         Charlotte
                                                         Cincinnati
                                                         Cleveland
                                                         Dallas
                                                         Denver
                                                         Detroit
                                                         Ft. Lauderdale
                                                         Honolulu
                                                         Houston
                                                         Kennedy
                                                         LaGuardia
                                                         Las Vegas
                                                         Los Angeles
                                                         Miami
                                                         Chicago Midway
                                                         Minneapolis
                                                         Newark
                                                         Oakland
                                                         Chicago O`Hare
                                                         Orlando
                                                         Philadelphia
                                                         Phoenix
                                                         San Diego
                                                         San Francisco
                                                         Salt Lake City
                                                         Seattle
                                                         Tampa
                                                         Washington Dulles
                                                         Washington Reagan

              Scheduled Flights        Available Seats

         Source: Federal Aviation Administration




CC-2009-039
                                                                                                     8


Regional Impact of Airline Cutbacks
A comparison of available seat capacity between November 2007 and November
2008 reveals an 11-percent decrease in available seats nationally, which was
spread fairly evenly across the Nation’s regions. However, the western and
midwestern regions saw slightly deeper losses in percentages of available seats
(see figure 10).
  Figure 10. Regional Changes in Available                              • The western region’s 13-
       Seats, Nov. 2008 vs. Nov. 2007                                     percent decline in capacity
   West
                                                    Midwest
                                                     -14%
                                                                          was due in part to changes in
   -13%
                                                                          service to and within
                                                                          Hawaii—which was impacted
                                                                          by the bankruptcy and closure
                                                                          of Aloha Airlines—and large
                                                                          cuts in service to leisure
                                                    Northeast
                                                                          destinations such as Las
      South
       -8%                                            -9%                 Vegas.
Source: Federal Aviation Administration
                                                    • The midwestern region’s 14-
    percent decline in capacity resulted from the downsizing of Delta’s Cincinnati
    hub and cutbacks by other carriers at their hubs in Cleveland and Chicago.
Impact of Airline Cutbacks on Small- and Medium-Sized Community
Airports
Although cutbacks in flight schedules affected airports of all sizes, the greatest
impact was seen at small and non-hub community airports (see figure 11).
Specifically, on a year-over-year basis, scheduled domestic flights in November
2008 were down roughly by 10 percent for the large-hub airports, 16 percent for
medium-hub airports, and 14 percent for both small and non-hub airports (Since
2000, non-hub airports have seen scheduled flights decline by approximately
36 percent.)
                      Figure 11. Change in Scheduled Departures by
                            Size of Community, 2008 vs. 2007
                                                                A




                                                                               N
                                                   M
                           Ja

                                 Fe

                                       M




                                                         Ju




                                                                         Se
                                             A




                                                                                O
                                                                 Ju

                                                                  ug




                                                                                 ov
                                                    ay
                                        ar

                                             pr




                                                                                  ct
                             n

                                   b




                                                           n




                                                                           p
                                                                    l




                      5.00%


                      0.00%


                      -5.00%


                    -10.00%


                    -15.00%


                    -20.00%
                                  Non-hub        Small-hub      Medium-hub     Large-hub

                    Source: Federal Aviation Administration

CC-2009-039
                                                                                    9


Yet, overall competition as measured by the number of airlines serving an airport
did not decline appreciably (see table 1). Only 76 of all 667 of the Nation’s
airports receiving scheduled air service lost more than half of the air carriers
serving their communities.

                    Table 1. Change in Domestic Competition,
                             Nov. 2008 vs. Nov. 2007
                   Percent Change in                  Average
                    Carriers Serving      Airports in Carriers
                         Airport            Group       Lost
                   100% (Lost all carriers)       30*          -1.1
                         75% - 99%                 1*          -3.0
                         50% - 74%                45*          -1.3
                         25% - 49%                90*          -1.3
                          1% - 24%                69*          -1.4
                    0% (Lost no carriers)        405*           0.0
                     Increase in carriers         27*           1.1
                            Total                667
                 Source: Federal Aviation Administration
                 *12 of 30 airports only lost service temporarily during a
                 transition to a replacement carrier.

Drastic Capacity Declines at Small Community (Non-Hub) Airports
Small community airports (non-hubs) saw the greatest reduction in their available
seat capacity, with a 16-percent decline in available seats, compared to the
11-percent decline nationwide.

Regionally, non-hub airports in the south saw an 11-percent decline in year-over-
year available seat capacity, while
                                             Figure 12. Regional Changes in
non-hubs in the west saw a decline
                                          Available Seats at Non-Hub Airports,
of 14 percent. In the midwestern                Nov. 2008 vs. Nov. 2007
region, available seats at non-hub
                                        West                         Midwest
airports declined 23 percent, most      -14%                          -23%
notably at Peoria and Rockford,
Illinois, and at Kalamazoo and
Lansing, Michigan.

Non-hubs in the northeastern                                                 Northeast
                                                                               -29%
region saw the largest impact of
the capacity cutbacks where year-
over-year available seat capacity      South
                                       -11%
declined by 29 percent. However,
the significance of this decline is  Source: Federal Aviation Administration
tempered by the fact that this
region also has the fewest number of non-hub airports, which results in a
magnified percentage decline in available capacity. Within the northeast region,
CC-2009-039
                                                                                                                                             10


New York’s Stewart Airport lost approximately two-thirds of its available seat
capacity and accounted for the highest percentage of losses in the entire region.

Impact on Essential Air Service (EAS) Program
The EAS program, which guarantees air service to eligible small communities,
experienced many challenges in 2008 when key EAS contracting carriers decided
to either cease operations or reduce the number of small (18 seat) aircraft in their
fleets. This resulted in 37 communities transitioning from one EAS carrier to
another during 2008. As of the release date for this report, six of these
communities continue to wait for replacement EAS service.

The number of communities receiving a subsidy under the EAS program increased
from 115 in 2001 to 146 in 2008 (see figure 13). During the same period, the EAS
annual appropriation more than doubled from $50 million to $109 million.

A significant increase in the number of communities vying for replacement air
service along with a reduction in the number of airlines willing to provide this
service led to lengthy interruptions in service at some airports, which forced the
Department of Transportation to negotiate replacement contracts at much higher
subsidy costs, given the higher fuel prices. The Department projects subsidy costs
will increase by 47 percent to $160 million in FY 2009.
                                                Figure 13. EAS Funding and Participating
                                                             Communities
                                                                                                           160
                                                $160                                                             Participating Communities
                                                                                                           140
                  Appropriations ($ millions)




                                                $140
                                                                                                           120
                                                $120
                                                $100                                                       100
                                                $80                                                        80
                                                $60                                                        60
                                                $40                                                        40
                                                $20                                                        20
                                                 $0                                                        0
                                                    01

                                                           02

                                                                  03

                                                                         04

                                                                                05

                                                                                       06

                                                                                              07

                                                                                                      08

                                                                                                       9
                                                                                                     Y0
                                                  FY

                                                         FY

                                                                FY

                                                                       FY

                                                                              FY

                                                                                     FY

                                                                                            FY

                                                                                                    FY

                                                                                                   *F




                                                         Appropriations                Subsidized Communities
                           Source: Department of Transportation
                           * FY 2009 numbers are projections

In Addition to Service and Capacity Cutbacks, Airlines Also Sought
To Offset Operating Losses by Reducing Their Workforce, Raising
Airfares, and Introducing New Fees
Workforce Layoffs
As a result of the capacity cutbacks, airlines reduced operating costs by paring
down their workforce. Airlines eliminated approximately 37,000 positions during
2008, a 7-percent decline from 2007 employment levels (see figure 14 below).

CC-2009-039
                                                                                                                                       11


                              Figure 14. Aviation-Related Employment for
                                US Certificated Carriers (in Thousands)
                              700
                                         668

                              650
                                                    600        591
                              600                                                                                     566
                                                                          558        564
                                                                                                548        540
                              550                                                                                                529


                              500

                              450

                              400


                                     00


                                                01


                                                           02


                                                                      03


                                                                                 04


                                                                                            05


                                                                                                       06


                                                                                                                  07


                                                                                                                             08
                                    20


                                               20


                                                          20


                                                                     20


                                                                                20


                                                                                           20


                                                                                                      20


                                                                                                                 20


                                                                                                                            20
                            Source: Bureau of Transportation Statistics (BTS)

American, Continental, and Delta were among the carriers that experienced the
highest reduction in their workforces during 2008. The industry reached its peak
employment in 2000 with roughly 668,000 employees.                 Following the
September 11, 2001, terrorist attacks, airline employment fell dramatically as
demand declined and airlines were forced to restructure. By the end of 2006,
aviation-related employment had declined to roughly 540,000, a 19-percent
decline from its 2000 peak. Fueled by airline restructurings and increases in
airline passenger traffic, the industry added jobs in 2007. However, in 2008, after
fuel prices spiked, airlines began reducing their workforces and fleet sizes to cut
costs. The recent layoffs placed airline-related employment at levels not seen
since 1992.

Fare Increases and New Fees
Airlines stabilized their revenue outlook by implementing fare increases and fuel
surcharges and charging fees for ancillary services. From the beginning of 2008
through the peak of the fuel prices in July 2008, airlines initiated 16 price
increases. 13 These increases included nine roundtrip fare increases that ranged
from $4 through $70 and seven roundtrip fuel surcharges that ranged from
$10 through $40. The price increases resulted in average airfare increases of
between 9 percent and 16 percent in the third quarter of 2008, compared to the
third quarter of 2007 (depending on the length of the flight), and played a
significant role in stabilizing the industry’s revenue outlook (see table A on
page ii). Airlines also generated revenue by tapping into ancillary sources, that is,
charging fees for services that were previously included in the price of airline
tickets (see table 2 below).




13
     A price increase represents a fare increase or fuel surcharge implemented by a network carrier that is matched by
     competing network carriers (and often times by major low-cost carriers) on more than two-thirds of their respective
     route networks. Price increases that are not adopted by competing network carriers are usually retracted by the
     carrier proposing the fare increase or fuel surcharge and are not included in this analysis.

CC-2009-039
                                                                                   12


                             Table 2. Summary of Airline Fees
                     1st Checked 2nd Checked    Additional     Ticket       Seat
                          Bag        Bag          Bags       Change Fee Selection Fee
 Air Tran

 Alaska

 American

 Continental

 Delta

 JetBlue

 Midwest Airlines

 Northwest

 Southwest

 Spirit

 United

 US Airways
 Source: Airline web sites


AIRLINE SERVICE CUTS, HIGHER AIRFARES, AND CONCERNS
OVER THE ECONOMY HAVE LED TO A DECLINE IN AIR
TRAFFIC
Although airlines were able to save on operating costs through service reductions,
the cutback in flights operations reduced passengers’ service options. This,
combined with the effect of the global economic recession and increases in air
fares, led to drops in domestic and international passenger traffic as well as
general aviation and air cargo flight activity in 2008.

Passenger Traffic Declined in 2008, Reaching Levels Not Seen Since
2004
Beginning in late summer 2008, domestic passenger traffic (measured in RPMs)
began shrinking after remaining relatively unchanged in the first half of the year.
In the fourth quarter of 2008, domestic passenger ridership declined by
9.6 percent, compared to the fourth quarter of 2007, and ended the year at levels
slightly lower than those last seen in the fourth quarter of 2004.

In contrast, international passenger traffic to and from the United States grew
during the first half of 2008 as airlines moved some of their capacity from their
domestic service to their international markets. Specifically, international
passenger traffic saw a 6-percent and 3-percent, year-over-year increase in the first
and second quarters of 2008, respectively.


CC-2009-039
                                                                                                                                                           13


For the first 9 months of 2008, passenger traffic was up slightly in each of the
three international regions: Latin America (2.8 percent), Atlantic (3.5 percent),
and Pacific (1.1 percent).

Initial signs of softness in international travel began appearing in the third quarter
of 2008, especially in Latin America where traffic was down 4.6 percent compared
to the same period in 2007 (see figure 15). International traffic figures for the last
3 months of 2008 show an accelerated decline, with each of the three international
regions showing declines of between 4 and 10 percent compared to the fourth
quarter of 2007.

                               Figure 15. International Passenger Traffic
                                  (Year-Over-Year Change in RPMs)
                               15%
                               10%
                                5%
                                0%
                               -5%
                              -10%
                              -15%

                                        06        06        06        06        07        07        07        07        08        08        08        08
                                   1Q        2Q        3Q        4Q        1Q        2Q        3Q        4Q        1Q        2Q        3Q        4Q
                                                   Latin America                               Atlantic                       Pacific

                             Source: Bureau of Transportation Statistics

System-wide 14 passenger enplanement data indicate that passenger enplanements
declined by 3.7 percent to 741.5 million in 2008, when compared to 2007. This
    Figure 16. System-Wide Passenger         marked the first annual decline in
         Enplanements (in Millions)          passenger enplanements since 2002
800                                770       and resulted in enplanements
                           739 745     741
750                                          declining to levels last seen in 2005
       699             704
700                                          (see figure 16). Enplanements began
           653 641 647
650                                          to decline in March 2008 and
600                                          worsened as the year progressed,
550                                          with a decline of 8.5 percent in the
500                                          fourth quarter of 2008 compared to
                                             the same period in 2007.
         00

         01

         02

         03

         04

         05

         06

         07

         08
      20

      20

      20

      20

      20

      20

      20

      20

      20




Source: Bureau of Transportation Statistics  During the third quarter of 2008, the
                                             major passenger airlines were able to
fill 82 percent of available seats (actual load factor), a decrease of 1 percent
compared to 2007 (see figure 17 below).


14
     System-wide passenger enplanements include passengers on domestic flights as well as international flights to and
     from the United States.

CC-2009-039
                                                                                                                         14


                   Figure 17. Load Factors for Select Airlines, 3Q 2008
                     100%

                                                                                90%

                      90%
                                                                                                             82%


                      80%



                      70%



                      60%




                                                                                   t
                                                     l




                                                                                              t




                                                                                                                     s
                                                                      e
                                                           ta
                              a


                                       an




                                                                                                         d
                                                   ta




                                                                                es


                                                                                            es




                                                                                                                 ay
                                                                     lu
                            sk




                                                                                                      te
                                                         el
                                                en
                                      ic




                                                                               w


                                                                                          w
                                                                 tB




                                                                                                                 w
                                                                                                  ni
                         la




                                                         D




                                                                           th
                                  er




                                                                                       th
                                            t in




                                                                                                             ir
                                                                                                  U
                                                                Je
                        A




                                                                          or


                                                                                     ou




                                                                                                             A
                                  m

                                           on
                              A




                                                                      N




                                                                                                        S
                                                                                   S
                                       C




                                                                                                       U
                                      Actual Load Factor                                      Average Load Factor
                                                                     Breakeven Load Factor
                  Source: Department of Transportation – Airline Quarterly
                          Financial Review

However, the average breakeven load factor increased sharply to 90 percent in the
third quarter (an increase of 12 percent over 2007) due to the increase in fuel
prices. Preliminary data on the fourth quarter of 2008 show that airlines continued
to maintain high load factors in the face of weakening demand through the
implementation of the previously announced capacity cutbacks. Airlines expect
passenger demand to continue to decline. Consequently, airlines have announced
plans to further cut capacity and are lowering airfares in an effort to stimulate
demand until those additional capacity cuts can be implemented.

Other Flight Activity Across the National Airspace System Declined in
2008
In November 2008, flight operations at en route centers were down by 14 percent
  Figure 18. Change in En Route Center    compared to November 2000. This is
       Flight Operations vs. 2000         the second biggest decrease in flight
 10%                                      operations since September 2001 when
  5%                                      operations declined by 16 percent year-
  0%                                      over-year. In December 2008, flight
 -5%                                      operations were 8.6 percent lower than
-10%
                       Dec 08 –           the same period in 2000 (see figure
-15%                 8.6% decline         18).
                            over Dec 00
-20%
Ju 2


      04

M 4
Ja 3




Se 8
A 1




        6




      08
M 5

D 6



Fe 7
N 2




O 5




      0
      0
      0



     -0




     -0
     -0




     -0



    l-0
     -0




     -0




     -0
   n-




   b-
   n-




   p-
   p-



  ov




  ay
 ug



  ct



  ec
  pr




  ar




 Ju
Se




A




Source: Federal Aviation Administration




CC-2009-039
                                                                                                                 15


Declines in General Aviation Activity
In addition to the downturn in airline operations, the unprecedented fuel prices and
economic recession also negatively
affected general aviation activity in     Figure 19. Year-Over-Year Change in Tower
                                                       Activity, 2008 vs. 2007
2008. When compared to 2007,              20%
instrument controlled (IFR) aircraft
                                          10%
operations recorded at air traffic
                                           0%
control towers in 2008 declined by
9 percent for general aviation and       -10%

5 percent for airlines. Furthermore,     -20%
general aviation operations were         -30%
down by 6 percent in the first half




                                                                    n




                                                                                           v

                                                                                           c
                                                                                          ct
                                                                                           p
                                                                          ar
                                                                           b




                                                                           n

                                                                                            l
                                                                          ay
                                                                           r




                                                                                           g
                                                                                         Ju
                                                                        Ap




                                                                                        No
                                                                                        Se




                                                                                        De
                                                                 Ja

                                                                        Fe




                                                                        Ju



                                                                                        Au



                                                                                         O
                                                                        M



                                                                        M
of 2008 and 11 percent in the                 Commercial Aviation    General Aviation Military
second half when compared to the
                                         Source: Federal Aviation Administration
same periods in 2007.                    Note: Chart presents IFR flight operations

Monthly, general aviation IFR
operations were down as much as 20 percent in November 2008, compared to
November 2007 (see figure 19). Indicative of the effect of fuel prices and
economic deterioration on general aviation businesses, the relatively new very
light jet (VLJ) 15 industry also suffered several significant setbacks during 2008.
VLJ manufacturers Adam Aircraft, Eclipse Aviation, and the leading VLJ
operator, DayJet, ceased operations late in 2008.

Declines in Air Cargo Activity
Domestic air cargo traffic fell by 8.3 percent in the first 9 months of 2008 (see
                                           figure 20).        Overnight delivery
  Figure 20. Domestic and International    provider DHL announced that it would
             Air Cargo Traffic             cease operations in the United States,
     (Revenue Ton Miles in Billions)
                                           which resulted in the layoff of
11   9.5
         10.1 9.9  10.6
                        9.6
                            10.2           14,900 employees at DHL and
                                 9.5
 9
                                     8.6   2 airlines providing lift on its behalf.
 7
        5.1     5.3    5.3   5.4
                                   4.8     4.9     4.7
                                                                 International air cargo traffic to and
                                                           4.4
 5                                                               from the United States remained
 3                                                               relatively unchanged in the first
                                                                 9 months of 2008 compared to the
   07

           07

                   07

                           07

                           08

                                      08

                                              08

                                                      08
 1Q

         2Q

                 3Q

                         4Q

                         1Q

                                    2Q

                                            3Q

                                                    4Q




                                                                 same period in 2007.
                      Domestic           International
Source: Bureau of Transportation Statistics
                                                                 Both domestic and international air
                                                                 cargo traffic declined at an accelerated

15
     Very Light Jets (VLJs) are a new generation of small, general aviation jet aircraft designed to accommodate 4 to
     6 passengers.

CC-2009-039
                                                                                                                       16


rate in the fourth quarter in response to the challenging economic environment,
declining by 18 and 19 percent, respectively, when compared to the fourth quarter
of 2007.

CUTBACKS IN SCHEDULED FLIGHTS ALSO LED TO FEWER
FLIGHT DELAYS AND CANCELLATIONS
The record rate of flight delays seen in 2007 continued into the first half of 2008.
In the second half of 2008, the number and rate of flight delays declined
dramatically. The decline was primarily due to the airlines’ capacity cutbacks
initiated in the fall and their decision to increase scheduled flight times and turn-
around times 16 to minimize the ripple effect of delays seen in 2007 and the first
half of 2008. Despite the improvement in the rate of flight delays, the average
length of delayed flights remained unchanged.

Flight Delays Declined Overall in 2008, but Congested Airports
Continued To See High Levels of Delays, and the Average Length of a
Delayed Flight Remained Unchanged
At the 55 airports tracked by FAA, flight delays for the summer of 2008 (June
through August) declined 17 percent from the unprecedented levels seen in the
summer of 2007. The improvement occurred as airlines began to trim their flight
schedules and increase scheduled flight times and turn-around times. For the
second half of 2008, the number of delays was 24 percent lower than the same
period in 2007. During the fall of 2008, the number of delays fell to levels not
seen since 2002 (see figure 21 below). The trend was broken in December 2008
as arrival delays jumped significantly due to severe weather across the northern
tier of the United States.
                              Figure 21. Delayed Flights at Major Airports,
                                 2008 vs. 2007 and 2002 (in Thousands)
                               250

                               200

                               150

                               100

                                50

                                  0
                                     n




                                                                              ct

                                                                                v

                                                                                           c
                                                                         p
                                           ar




                                                                  l
                                            n
                                            b




                                           ay
                                            r




                                                                 g
                                                               Ju
                                         Ap




                                                                             No
                                                                       Se




                                                                                        De
                                  Ja

                                         Fe




                                         Ju



                                                              Au



                                                                             O
                                         M



                                         M




                                               2002             2007             2008

                             Source: Federal Aviation Administration




16
     Turn-around time, adding to the time between the arrival and subsequent departure of an aircraft, provides a buffer to
     absorb arrival delays and minimizes the delay from propagating further into the later flights of an aircraft.

CC-2009-039
                                                                                                        17


Not only did the number of delayed flights improve during the summer of 2008
but the rate of delays also improved. Flight delays declined to 25 percent during
the summer of 2008, compared to approximately 29 percent during the summer of
2007. This improvement continued throughout most of the second half of 2008
(see figure C on page v). The rate of delayed flights also improved during the last
6 months of 2008—to approximately 22 percent compared to roughly 27 percent
during the same period in 2007. The declining rate was aided by the significant
reduction in flight operations that took place in the second half of 2008 and
improved weather, except for the winter storms that plagued airport operations in
December of 2008.

Of the 55 major airports tracked by FAA, 52 airports saw decreases in year-over-
year flight delays during the summer of 2008. Most of the 52 airports saw
reductions in the 15- to 30-percent range. The three airports that saw the biggest
percentage reductions were Minneapolis, Pittsburgh, and Salt Lake City (see
figure 22). Only 3 of the 55 saw little to no change (San Francisco, Honolulu, and
Newark).

                Figure 22. Change in Rate of Delays at Three Best
                  and Worst Airports, Sum. 2008 vs. Sum. 2007
                  30%
                  20%
                  10%          6%
                                            2%          0%
                   0%
                  -10%
                  -20%
                  -30%
                                                                      -32%         -32%
                  -40%
                                                                                                 -38%
                  -50%
                                                                       l
                              co         lul
                                             u        rk             au            gh           ity
                           cis        no           wa             t.P            ur           eC
                       Fr
                         an         Ho           Ne
                                                           li s
                                                               / S
                                                                            ittsb         L ak
                   n                                     po                P
                                                                                     Sa
                                                                                       lt
                 Sa                                    ea
                                                    inn
                                                   M

                Source: Federal Aviation Administration

However, delays continued to be a problem during the summer of 2008 at larger,
heavily congested airports. For example, delays at Newark were up 0.4 percent.
At Kennedy, LaGuardia, and Chicago O’Hare, delays were down only about
5 percent each.
Despite the reduction in the number and rate of flight delays, the average length of
a delayed flight did not change in the second half of 2008 compared to the second
half of 2007 and remained at approximately 55 minutes. In fact, the average
length of a delayed flight increased dramatically in December 2008 compared to
the same month last year due to inclement weather conditions (see figure 23
below).



CC-2009-039
                                                                                              18


                  Figure 23. Length of Flight Delays at Major
                 Airports, 2008 vs. 2007 and 2002 (in Minutes)
                 75


                 60


                 45


                 30


                 15




                                                       n




                                                                      ep
                                                            ug
                                                              l
                    n

                              b




                                                                                  ov
                                               ay




                                                                            ct




                                                                                        ec
                                         pr
                                   ar




                                                            Ju
                                                     Ju
                  Ja

                            Fe




                                                                           O
                                  M


                                        A




                                                                     S
                                              M




                                                           A




                                                                                 N

                                                                                       D
                                        2002                  2007                     2008

                Source: Federal Aviation Administration

Flight cancellations at the 55 airports tracked by FAA were 8 percent lower in
2008 compared to 2007 and did not match the magnitude of the reductions in
delays (which were down 13 percent). Figure 24 compares the monthly
cancellations in 2008 to 2007 and 2002.

                    Figure 24. Flights Cancellations at Major
                Airports, 2008 vs. 2007 and 2002 (in Thousands)
                 30

                 25

                 20

                 15

                 10

                  5

                  0
                                                      n

                                                              l



                                                                    p
                                                            ug
                        n

                              b




                                                                         ov
                                                                          ct
                                         ay
                                          pr




                                                                                   ec
                                   ar




                                                            Ju
                                                    Ju
                      Ja




                                                                  Se
                            Fe




                                                                        O
                                  M

                                        A

                                        M




                                                           A




                                                                        N

                                                                                  D




                                              2002           2007            2008

                Source: Federal Aviation Administration




CC-2009-039
                                                                                  19




EXHIBIT A. SCOPE AND METHODOLOGY
Data represented graphically in the report were collected from the Federal
Aviation Administration (FAA), the Bureau of Transportation Statistics (BTS),
and the Office of Aviation Analyses (OAA). The secondary sources of data were
the Department of Energy’s (DOE) Energy Information Administration and the
Securities and Exchange Commission (SEC). FAA, BTS, and OAA are
organizations within the Department of Transportation.

We did not systematically audit or validate the data contained in any of the
databases. However, during previous editions, we conducted trend analyses and
random checks of the data to assess reasonableness and comprehensiveness.
When our judgmental sampling identified anomalies or apparent limitations in the
data, we held discussions with managers responsible for maintaining the databases
to better understand the data and attempt to resolve the inconsistencies.
Consequently, we did not perform sufficient tests to draw conclusions or form an
opinion on the completeness or accuracy of the data sources.

We met periodically with staff from FAA, BTS, and OAA to discuss data issues
and obtain feedback on modifications we made to existing data in order to more
accurately represent industry trends.

A.      Analyses Performed With BTS Data
Financial, traffic, operational statistics, employment, and passenger ticket survey
information obtained from BTS sources were used in financial and statistical
analyses of history, trends, employment levels, status and performance of financial
condition, net profits and losses, debt and investment and load factors.

     1. Air Carrier Financial Statistics. A compilation of financial reports
        submitted by air carriers as required under Title 14 Code of Federal
        Regulations (CFR) Part 241 (Form 41). Scope: all certificated U.S. air
        carriers, from 2000 through the fourth quarter 2008.
     2. Air Carrier Traffic Statistics. A compilation of traffic and capacity reports
        submitted by air carriers as required under 14 CFR Part 241 (Form 41).
        Scope: all certificated U.S. air carriers (passenger and cargo), commuter air
        carriers, and foreign air carriers operating to and from the United States,
        from 2000 through the fourth quarter 2008.
     3. Origin and Destination Survey of Passenger Travel (O&D Survey). A
        compilation of surveyed ticket information submitted quarterly as required
        under 14 CFR Part 241 (Form 41). Scope: 10-percent sample of tickets
        used by passengers, from 2000 through the fourth quarter 2008.


Exhibit A. Scope and Methodology
                                                                                   20


B.      Analyses Performed With DOT-OAA Data
Financial, traffic, and operational statistics obtained from DOT sources were used
in financial and statistical analyses of history, trends, status, and performance of
airline revenues, expenses, profits, traffic and capacity, and the EAS Program.

     1. Airlines’ Quarterly Financial Review. A quarterly report analyzing the
        financial and operating performance and condition of the major airlines in
        the United States. Prepared using financial and traffic statistics reported to
        BTS by the airlines. Scope: 19 major air carriers (17 passenger and 2 all-
        cargo carriers), from 2001 through the fourth quarter 2008.
     2. EAS Program. Information on EAS budgets and number of communities
        served was supplied to the OIG by EAS program administrators. Scope:
        budget and program activity for fiscal years (FY) 2001 through 2008 and
        OST’s projected program costs for FY 2009.
     3. Domestic Airline Fares Consumer Report. A quarterly report that supplies
        the average air fare paid by passengers traveling in distinct airport pair
        markets with an average of 10 or more daily passengers. Prepared using
        the DOT Domestic edition of the Origin and Destination Survey of
        Passenger Travel (O&D Survey). Scope: A 10-percent sample of tickets of
        passengers traveling on domestic flights within the 48 states, quarterly from
        the third quarter or 2007 through the third quarter 2008.
C.      Analyses Performed With FAA Data
Air Traffic Control (ATC) delay and operational statistics and airline flight
schedule data obtained from FAA sources were used in statistical analyses of
history, trends, status, and performance of air traffic control management and
delays; airline scheduled capacity, operations, and market share; and aircraft type
usage.

     1. Flight Schedule Data System (FSDS). A database of published airline flight
        schedules. Scope: domestic service, November 2007 versus November
        2008.
     2. Aviation System Performance Metrics (ASPM). A database of FAA air
        traffic control performance measures including delays, cancellations,
        operations, and causes for delays. Scope: 55 major airports across the
        country from 2000 through fourth quarter of 2008.
     3. Operations Net (OPSNET) Center. A database of air route traffic control
        center aircraft movement operations handled by the various air route traffic
        control centers. Scope: 22 air route traffic control centers, from September
        2001 through December 2008.



Exhibit A. Scope and Methodology
                                                                                  21


D.      Analyses Performed From Other Sources
Historical and projected fuel prices and public and private reports and analysis
regarding cash burn rates and liquidity and leverage of the airline industry.

     1. U.S. DOE Energy Information Administration. A collection of official
        energy statistics, including historical and projected jet fuel prices. Scope:
        jet fuel spot price and projections, from 1990 through 2010 and crude oil
        spot price from 2007 through February 2009)
     2. U.S. SEC Filings and Forms and airline industry analysis performed by
        various Wall Street Investment Banking firms. A collection of publicly
        available financial statement filings, including reports and estimates on
        liquidity, cash position, and leverage. Scope: first quarter 2007 through
        fourth quarter 2008.
     3. Airlines Press Releases and Aviation Publications: A collection of
        network, low cost and regional carriers’ fleet reductions announced in
        2008. Fleet reductions are broken down as follows: Low-Cost Carriers –
        AirTran Airways (6), Frontier Airlines (11), and Southwest Airlines (22)
        Network Carriers – American Airlines (85), Continental Airlines (67),
        Delta Air Lines (20), Northwest Airlines (47), United Airlines (94), and US
        Airways (12) Regional Carriers – Midwest Airlines (12)




Exhibit A. Scope and Methodology
                                                                                                                      22



EXHIBIT B. LIST OF FIGURES AND TABLES

Table A.     Airfares by Flight Length ........................................................................... ii

Figure A.    Regional Changes in Available Seats at Non-Hub Airports .................. iii

Figure B.    Domestic Passenger Traffic ..................................................................... iv

Figure C.    Rate of Delayed Flights at 55 Major Airports ........................................... v

Figure D.    Rate of Delayed Flights at Congested Airports ....................................... v



Figure 1.    Jet Fuel Prices ............................................................................................ 1

Figure 2.    Airline Operating Revenue vs. Expenses................................................. 2

Figure 3.    Select Carrier 2008 Operating Profit/Loss ............................................... 3

Figure 4.    Industry Liquidity and Leverage ............................................................... 3

Figure 5.    Changes in Domestic Capacity ................................................................. 4

Figure 6.    Change in Scheduled Flights for Legacy and Low-Cost Carriers.......... 5

Figure 7.    Change in Scheduled Flights by Flight Distance .................................... 5

Figure 8.    Change in Scheduled Flights by Aircraft Size ......................................... 6

Figure 9.    Capacity Changes at Major Airports......................................................... 7

Figure 10.   Regional Changes in Available Seats....................................................... 8

Figure 11.   Change in Scheduled Departures by Size of Community....................... 8

Table 1.     Change in Domestic Competition ............................................................. 9

Figure 12.   Regional Changes in Available Seats at Non-Hub Airports ................... 9

Figure 13.   EAS Funding and Participating Communities ....................................... 10

Figure 14.   Aviation-Related Employment for US Certificated Carriers ................. 11

Table 2.     Summary of Airline Fees ......................................................................... 12

Figure 15.   International Passenger Traffic ............................................................... 13

Figure 16.   System-Wide Passenger Enplanements ................................................ 13



Exhibit B. List of Figures and Tables
                                                                                                          23


Figure 17.   Load Factors for Select Airlines ............................................................. 14

Figure 18.   Change in En Route Center Flight Operations ...................................... 14

Figure 19.   Year-Over-Year Change in Tower Activity.............................................. 15

Figure 20.   Domestic and International Air Cargo Traffic ........................................ 15

Figure 21.   Delayed Flights at Major Airports ........................................................... 16

Figure 22.   Change in Rate of Delays at Three Best and Worst Airports ............... 17

Figure 23.   Length of Flight Delays at Major Airports .............................................. 18

Figure 24.   Flights Cancellations at Major Airports.................................................. 18




Exhibit B. List of Figures and Tables
                                                                                24


EXHIBIT C. GLOSSARY OF COMMONLY USED TERMS
Available Seat Miles (ASMs) – One seat transported one mile; the most common
measure of airline seating capacity.

Actual Load Factor – The percentage of available seats that are filled with paying
passengers. Load factor is computed as the ratio of Revenue Passenger Miles to
Available Seat Miles.

Breakeven Load Factor – The load factor at which a flight earns revenues equating
to its expenses.

Cost per Available Seat Mile (CASM) – A measure of unit cost, calculated by
dividing operating costs by available seat miles.

Enplanements – The number of passengers boarding a flight.

Enroute Center – Sometimes referred to as a “center,” or an Air Route Traffic
Control Center, it houses the air traffic controllers and equipment needed to
identify and direct aircraft during the en route—as opposed to the approach and
departure—portion of their flights.

Essential Air Service – Government-subsidized airline service to eligible small
communities, which began after the Airline Deregulation Act of 1978.

General Aviation – A term used to describe all non-military and non-airline flying,
encompassing everything from recreational aircraft to experimental aircraft to
privately owned and operated business jets.

Hub Airport – A ranking designation assigned to U.S. airports by FAA based on
an airport’s percentage share of total passenger enplanements at all U.S. airports.
FAA categorizes airports based on the following percentage of annual passenger
enplanements in the United States by hub type.

      Large-Hub            1.0 percent or more of total enplanements
      Medium-Hub           at least 0.25 percent, but less than 1 percent
      Small-Hub            at least 0.05 percent, but less than 0.25 percent
      Non-Hub              at least 2,500, but less than 0.05 percent.

Instrument Flight Rules – Rules governing flight relying on the aircraft's
instruments and navigation aids. IFR permit aircraft to fly in certain limited
visibility and cloud conditions. Virtually any commercial operation—including
airlines and business jets—utilizes the IFR system.

Jet Fuel – The term describes kerosene-type jet fuel used primarily for commercial
turbojet and turboprop aircraft engines.

Exhibit C. Glossary of Commonly Used Terms
                                                                                  25


Large Jet – For the purposes of the Aviation Industry Performance report, large
jets are all commercially operated jet transport aircraft other than those defined as
regional jets.

Low-Cost Carrier – For the purposes of the Aviation Industry Performance report,
the category low-cost carrier includes AirTran, America West, American Trans
Air (ATA), Frontier Airlines, JetBlue Airways, National Airlines, Pan American
Airways, Southwest Airlines, Spirit Airlines, Sun Country, and Vanguard Airlines.
However, Vanguard Airlines and National Airlines ceased operations in July 2002
and November 2002, respectively. ATA ceased operations in April 2008 and Pan
American ceased operations in 1998. America West airlines merged with
US Airways in September 2007.

Major Legacy Passenger Airline – Except where noted, for the Aviation Industry
Performance report, the category major passenger airline includes AirTran
Airways, Alaska Airlines, American Airlines, American Eagle Airlines, Atlantic
Southeast Airlines, Comair, Continental Airlines, Delta Air Lines, ExpressJet,
Frontier, JetBlue, Mesa, Northwest Airlines, SkyWest, Southwest Airlines, United
Airlines, and US Airways. AirTran, Atlantic Southeast, and Skywest were added
to the list in the first quarter of 2006. In the first quarter of 2007, America Trans
Air (ATA) was removed from the list while Mesa was added. America West
airlines combined with US Airways in the fourth quarter of 2007 on account of
their September 2007 merger.

National Airspace System (NAS) – The common network of U.S. airspace, air
navigation facilities, equipment and services, airports or landing areas.

Network or Legacy Airline – For the purposes of the Aviation Industry
Performance report, the category network airline includes Alaska Airlines,
American Airlines, Continental Airlines, Delta Air Lines, Northwest Airlines,
United Airlines, and US Airways. For the purposes of consistency over time, the
financial and operating statistics for the former Trans World Airlines have been
merged with those of the acquirer American Airlines.

Other Airlines – Except where noted, for the purposes of Aviation Industry
Performance report, the category other airlines includes all scheduled U.S. airlines
not included in the network and low-cost categories, that is, mostly smaller
scheduled regional, commuter, and national airlines (many of which are affiliated
with the major network carriers).




Exhibit C. Glossary of Commonly Used Terms
                                                                                  26


Regional Carrier – An airline with a fleet principally comprised of aircraft
configured with fewer than 100 seats, operating within a limited geographic scope
(may have multiple regions, though not interlinked across the country under its
own single brand), principally serving hub-and-spoke networks, and conducting
most of its operations under the affiliation(s) of larger branded airlines (network
carriers). For the purposes of this report, we also consider internal mainline
operating units that are principally involved in regional operations as regional
carriers.

Regional Jet (RJ) – All turbofan jet-powered aircraft configured to seat 77 or
fewer passengers, operated by either a regional or network carrier, and all turbofan
jet-powered aircraft configured to seat between 78 and 100 passengers and
operated by regional carriers.

Regions – For purposes of this report, the Nation was delineated into four regions
composed of states and the District of Columbia. Northeast Region: Maine, New
Hampshire, Vermont, Massachusetts, Rhode Island, Connecticut, New York, New
Jersey, and Pennsylvania. Midwest Region: Ohio, Indiana, Illinois, Michigan,
Wisconsin, Minnesota, Iowa, Missouri, North Dakota, South Dakota, Nebraska,
and Kansas. South Region: Delaware, Maryland, Virginia, West Virginia, North
Carolina, South Carolina, Georgia, Florida, Kentucky, Tennessee, Alabama,
Mississippi, Arkansas, Louisiana, Oklahoma, Texas, and District of Columbia.
West Region: Montana, Idaho, Wyoming, Colorado, New Mexico, Arizona, Utah,
Nevada, Washington, Oregon, California, Alaska, and Hawaii.

Revenue or Yield Management – The process an airline uses to optimize revenue
across its system of flights. In this process, airlines seek to determine the optimal
mix of prices and seats to maximize revenue per flight, or per network of flights,
rather than per person.

Revenue Passenger Mile (RPM) – One fare-paying passenger transported one
mile; the most common measure of demand for air travel.

Revenue Ton Miles – One ton of cargo transported one mile.

Tower – Also referred to as control tower, is located at the airport and generally
handles at and in close proximity of the airport.

Turboprop – A type of engine that uses a jet engine to turn a propeller.
Turboprops are often used on regional and business aircraft because of their
relative efficiency at speeds slower than, and altitudes lower than, those of a
typical jet aircraft.

Very Light Jet (VLJ) – Typically an aircraft weighing less than 6,000 pounds
equipped with twin turbojet engines with seating for four to six passengers.

Exhibit C. Glossary of Commonly Used Terms
                                                                      27



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

  Name                         Title

  David Tornquist              Assistant Inspector General for Rail
                                and Maritime Program Audits and
                                Economic Analysis

  Mitch Behm                   Program Director

  Jaydeep Borwankar            Project Manager

  Stephen G. Smith             Transportation Analyst

  Andrew Sourlis               Analyst

  Meredith McDaniel            Analyst

  Michael Broadus              Analyst

  Andrea Nossaman              Writer-Editor




Exhibit D. Major Contributors to This Report
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
         Aviation Industry Performance: A Review of the Aviation
                              Industry in 2008
                    Section 508 Compliant Presentation

Table A: Airfares by Flight Length (3Q08 versus 3Q07)
      Market Definition                 Average Airfares
                                                                       Change
     (Average Distance)                 3Q08            3Q07
 Short-Haul (300 miles)                  $142            $122             16%
 Medium-Haul (1,000 miles)               $183            $168              9%
 Long-Haul (1,500 miles)                 $232            $208             11%
Source: Department of Transportation
Note: Airfare data do not include fees for checked bags and other ancillary services.


Figure A: Regional Changes in Available Seats at Non-Hub Airports,
November 2008 versus November 2007
                                                           Percent
                                                          Change in
                        Region
                                                          Available
                                                            Seats
 Northeast (includes Connecticut, Maine, Massachusetts, New
 Hampshire, New Jersey, New York, Pennsylvania, Rhode Island,                     -29%
 Vermont)
 Midwest (includes Illinois, Indiana, Iowa, Kansas, Michigan,
 Minnesota, Missouri, Nebraska, North Dakota, Ohio, South                         -23%
 Dakota, Wisconsin)
 West (includes Alaska, Arizona, California, Colorado, Hawaii,
 Idaho, Montana, Nevada, New Mexico, Oregon, Utah,                                -14%
 Washington, Wyoming)
 South (includes Alabama, Arkansas, Delaware, Florida, Georgia,
 Kentucky, Louisiana, Maryland, Mississippi, North Carolina,
                                                                                  -11%
 Oklahoma, South Carolina, Tennessee, Texas, Virginia, West
 Virginia)
 National Average                                                                 -16%
Source: Federal Aviation Administration
Figure B: Domestic Passenger Traffic, 2008 versus 2007 and
2002 (Monthly Revenue Passenger miles in Billions)
     Month           2002          2007            2008
January                      33.9              45.0         45.5
February                     33.6              41.9         44.6
March                        42.6              52.0         53.4
April                        39.5              49.9         49.5
May                          40.9              50.4         51.5
June                         44.1              53.4         53.8
July                         47.2              55.9         56.1
August                       46.9              53.4         54.2
September                    35.1              44.2         42.2
October                      40.1              48.3         46.1
November                     37.2              47.0         41.6
December                     42.4              48.0         45.1
Source: Bureau of Transportation Statistics


Figure C: Rate of Delayed Flights at 55 Major Airports
2008 versus 2007 and 2002
    Month          2002         2007         2008
                                         27%          28%
January                20%
 February              17%              31%           31%
 March                 22%              28%           30%
 April                 17%              25%           24%
 May                   18%              23%           22%
 June                  20%              31%           29%
 July                  19%              30%           24%
 August                17%              28%           22%
 September             13%              20%           17%
 October               16%              24%           16%
 November              17%              22%           18%
 December              23%              35%           33%
Source: Federal Aviation Administration
Figure D: Rate of Delayed Flights at Congested
Airports (4th Quarter 2008)
                                      Rate of Delay
               Airport
                                      (4th Qtr 2008)
 New York – Newark                                   37%
 New York – Kennedy                                  30%
 Miami                                               28%
 San Francisco                                       27%
 Atlanta                                             27%
 New York - LaGuardia                                26%
 Average delay rate at remaining 49
                                                     21%
 airports tracked by the FAA
Source: Federal Aviation Administration


Figure 1: Jet Fuel Prices – U.S Gulf Coast
Spot Price (January 1998 – February 2009)
                           Monthly Oil Price
         Month
                               ($/Gallon)
 January 1998                            $0.48
 January 1999                            $0.33
 January 2000                            $0.78
 January 2001                            $0.87
 January 2002                            $0.53
 January 2003                            $0.89
 January 2004                            $1.00
 January 2005                            $1.33
 January 2006                            $1.82
 January 2007                            $1.65
 January 2008                            $2.60
 January 2009                            $1.47
Source: Energy Information Administration
Note: Average spot price for July 2007: $2.14/gallon
Note: Average spot price for July 2008: $3.89/gallon
Note: Average spot price for February 2009: $1.26/gallon
Figure 2: Airline Operating Revenue versus Expenses ($ in Billions)
                                 Operating          Operating
           Quarter               Revenues           Expenses
                                 In Billions        In Billions
 First Quarter 2001                           $23.3                      $24.1
 Second Quarter 2001                          $24.3                      $25.0
 Third Quarter 2001                           $21.2                      $24.4
 Fourth Quarter 2001                          $16.6                      $20.9
 First Quarter 2002                           $18.2                      $20.9
 Second Quarter 2002                          $20.4                      $21.9
 Third Quarter 2002                           $20.2                      $22.6
 Fourth Quarter 2002                          $18.8                      $21.7
 First Quarter 2003                           $19.2                      $22.2
 Second Quarter 2003                          $20.3                      $21.0
 Third Quarter 2003                           $21.9                      $21.3
 Fourth Quarter 2003                          $21.0                      $21.7
 First Quarter 2004                           $22.0                      $23.0
 Second Quarter 2004                          $24.7                      $23.3
 Third Quarter 2004                           $24.9                      $24.3
 Fourth Quarter 2004                          $23.4                      $25.5
 First Quarter 2005                           $23.9                      $25.4
 Second Quarter 2005                          $27.2                      $26.7
 Third Quarter 2005                           $28.1                      $28.0
 Fourth Quarter 2005                          $26.3                      $27.7
 First Quarter 2006                           $27.6                      $28.0
 Second Quarter 2006                          $33.2                      $29.6
 Third Quarter 2006                           $32.1                      $30.4
 Fourth Quarter 2006                          $29.3                      $28.6
 First Quarter 2007                           $28.9                      $28.1
 Second Quarter 2007                          $33.2                      $30.2
 Third Quarter 2007                           $34.7                      $31.9
 Fourth Quarter 2007                          $32.2                      $32.2
 First Quarter 2008                           $32.4                      $33.6
 Second Quarter 2008                          $36.5                      $38.1
 Third Quarter 2008                           $37.3                      $38.8
 Fourth Quarter 2008                          $31.3                      $32.7
Source: Office of Secretary of Transportation – Airline Quarterly Financial Review
Figure 3: Select Carrier 2008 Operating
Profit/(Loss) ($ in Millions)
                              Profit or Loss
          Airline
                               (In Millions)
  AirTran                                     -$72
  Alaska                                      -$23
  American                                -$2,054
  Continental                               -$378
        a
  Delta                                        $56
  Frontier                                    -$87
  JetBlue                                      $85
             b
  Northwest                                 -$541
  Southwest                                  $449
  United                                  -$1,747
  US Airways                              -$1,773
Source: Department of Transportation.
a
  Includes operating results for Northwest from October 30
   through the end of 2008 due to merger.
b
  Financial results through October 29, 2008.


Figure 4: Industry Liquidity and Leverage
                        Total Liquidity/LTM                  Total Debt/Total
       Quarter
                              Revenue                             Equity
 Second Quarter 2007                     25.4%                         1.5x
 Third Quarter 2007                      22.7%                         1.4x
 Fourth Quarter 2007                     21.5%                         1.3x
 First Quarter 2008                      20.3%                         1.8x
 Second Quarter 2008                     23.9%                         2.1x
 Third Quarter 2008                      18.8%                         3.0x
 Fourth Quarter 2008                     15.6%                       12.4x
Source: Security and Exchange Commission
Note: Total liquidity defined as total available cash (cash + short term investment
      + balance available to be borrowed under a revolving line of credit)
Figure 5: Changes in Domestic Capacity, 2008 versus
2007 and 2002 (Available Seat Miles in Billions)
    Month          2002        2007           2008
 January                54.0              62.4   62.6
 February               50.3              56.2   58.8
 March                  57.3              65.2   65.1
 April                  56.1              63.0   62.0
 May                    57.8              64.5   63.6
 June                   58.7              64.4   64.2
 July                   61.7              67.5   67.0
 August                 61.9              67.5   65.2
 September              55.9              62.2   55.7
 October                59.2              64.2   58.1
 November               56.1              62.4   55.0
 December               58.4              64.1   57.2
Source: Bureau of Transportation Statistics


Figure 6: Changes in Scheduled
Flights for Legacy and Low Cost
Carriers, November 2008 versus
November 2007
                     Percentage
        Airline
                      Change
 Northwest                         -1%
 Southwest                         -2%
 JetBlue                           -3%
 Frontier                          -6%
 AirTran                           -7%
 Spirit                           -11%
 US Airways                       -13%
 Continental                      -13%
 United                           -14%
 Alaska                           -15%
 Delta                            -17%
 American                         -17%
Source: Federal Aviation Administration
Figure 7: Change in Scheduled Flights by Flight
Distance November 2008 versus November 2007
(Distance in Miles)
                                          Percent Change
           Range in Miles
                                             in Flights
 Short-Haul: 0 to 249 miles                    -13%
 Short-Haul: 250 to 499 miles                  -12%
 Medium-Haul: 500 to 999 miles                 -12%
 Medium-Haul: 1,000 to 1,499 miles             -13%
 Long-Haul: 1,500 to 2,499 miles               -17%
 Long-Haul: 2,500 to 7,000 miles               -17%
Source: Federal Aviation Administration


Figure 8: Percent Change in Scheduled Flights by
Aircraft Size, November 2008 vs. November 2007
          Aircraft Type          Percent Change
Piston                                     -15%
Turboprop                                  -17%
Regional Jet 35-70 Seats                   -15%
Regional Jet 71-100 Seats                   29%
Jet 101-170 Seats                          -11%
Jet 171-250 Seats                          -16%
Jet 251-300 Seats                          -23%
Source: Federal Aviation Administration
Note: Number ranges in figure 8 represent number of seat
      ranges for that aircraft.
Figure 9: Capacity Changes at Major Airports, November 2008
versus November 2007
                          Percent Change in   Percent Change in
        Airports
                          Scheduled Flights    Scheduled Seats
Atlanta                            -3%               -3%
Baltimore                          -8%               -9%
Boston                            -12%              -10%
Charlotte                          -2%               -3%
Cincinnati                        -27%              -25%
Cleveland                         -17%              -14%
Dallas                            -10%              -10%
Denver                             -4%               -2%
Detroit                            -4%               -7%
Ft. Lauderdale                    -12%               -9%
Honolulu                          -14%              -16%
Houston                           -13%              -10%
Kennedy                            -7%               -8%
LaGuardia                         -12%              -11%
Las Vegas                         -18%              -16%
Los Angeles                       -22%              -15%
Miami                              -8%               -1%
Chicago Midway                    -17%              -18%
Minneapolis                        -5%              -12%
Reagan National                    -5%               -5%
Newark                             -5%              -10%
Oakland                           -28%              -27%
Chicago O’Hare                    -14%              -14%
Orlando                           -17%              -12%
Philadelphia                       -5%               -7%
Phoenix                           -13%              -13%
San Diego                         -15%               -9%
San Francisco                      -4%               -5%
Salt Lake City                    -15%              -13%
Seattle                            -8%               -5%
Tampa                             -15%              -11%
 Washington Dulles                  -11%            -12%
Source: Federal Aviation Administration
Figure 10: Regional Changes in Available Seats, November 2008 versus
November 2007
                                                     Percent Change
                       Region                          in Available
                                                          Seats
 Northeast (includes Connecticut, Maine, Massachusetts, New
 Hampshire, New Jersey, New York, Pennsylvania, Rhode Island,        -9%
 Vermont)
 Midwest (includes Illinois, Indiana, Iowa, Kansas, Michigan,
 Minnesota, Missouri, Nebraska, North Dakota, Ohio, South           -14%
 Dakota, Wisconsin)
 West (includes Alaska, Arizona, California, Colorado, Hawaii,
 Idaho, Montana, Nevada, New Mexico, Oregon, Utah,                  -13%
 Washington, Wyoming)
 South (includes Alabama, Arkansas, Delaware, Florida, Georgia,
 Kentucky, Louisiana, Maryland, Mississippi, North Carolina,
                                                                     -8%
 Oklahoma, South Carolina, Tennessee, Texas, Virginia, West
 Virginia)
 National Average                                                   -11%
Source: Federal Aviation Administration


Figure 11: Change in Scheduled Departures by Size of Community, 2008
vs. 2007
                 Large-Hub Medium-Hub        Small-Hub   Non-Hub
     Month
                   Airports     Airports      Airports    Airports
January                   -1.08%            0.19%      -0.44%       0.03%
February                   2.13%            3.57%        3.43%      2.10%
March                     -1.79%           -0.44%       -0.48%     -3.15%
April                     -0.97%           -1.45%       -0.40%     -2.25%
May                       -1.64%           -3.74%       -3.07%     -4.04%
June                      -1.16%           -3.85%       -2.56%     -3.88%
July                      -1.07%           -4.45%       -2.72%     -4.12%
August                    -3.79%           -7.61%       -6.21%     -8.00%
September                 -6.82%          -11.97%     -10.21%      -9.73%
October                   -8.30%          -13.54%     -12.18%     -12.02%
November                 -10.38%          -16.02%     -14.18%     -14.38%
Source: Federal Aviation Administration
Table 1. Change in Domestic Competition,
November 2008 versus November 2007
 Percent Change in                Average
  Carriers Serving    Airports in Carriers
       Airport          Group       Lost
100% (Lost all carriers)          30*            -1.1
75% - 99%                         1*             -3.0
50% - 74%                         45*            -1.3
25% - 49%                         90*            -1.3
1% - 24%                          69*            -1.4
0% (Lost no carriers)            405*            0.0
Increase in carriers              27*            1.1
Total                             667
Source: Federal Aviation Administration
*12 of 30 airports only lost service temporarily during a
transition to a replacement carrier.


Figure 12: Regional Changes in Available Seats at Non-Hub Airports,
November 2008 versus November 2007
                                                         Percent Change in
                        Region
                                                           Available Seats
Northeast (includes Connecticut, Maine, Massachusetts, New
Hampshire, New Jersey, New York, Pennsylvania, Rhode Island,       -29%
Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas, Michigan,
Minnesota, Missouri, Nebraska, North Dakota, Ohio, South Dakota,   -23%
Wisconsin)
South (includes Alabama, Arkansas, Delaware, Florida, Georgia,
Kentucky, Louisiana, Maryland, Mississippi, North Carolina,
                                                                   -11%
Oklahoma, South Carolina, Tennessee, Texas, Virginia, West
Virginia)
West (includes Alaska, Arizona, California, Colorado, Hawaii,
Idaho, Montana, Nevada, New Mexico, Oregon, Utah, Washington,      -14%
Wyoming)
National Average                                                   -16%
Source: Federal Aviation Administration
Figure 13: EAS Funding and Participating Communities
                                        Number of
                    Appropriations
    Fiscal Year                        Communities
                      In Millions
                                        Subsidized
         2001                     $50               115
         2002                    $113               123
         2003                    $102               126
         2004                    $102               140
         2005                    $102               146
         2006                    $109               152
         2007                    $109               147
         2008                    $109               146
         2009*                   $160               148
Source: Department of Transportation
* FY 2009 numbers are projections


Figure 14: Aviation Related Employment
for US Certificated Carriers (in Thousands)
     Year              Employment
      2000                      667,778
      2001                      599,531
      2002                      590,779
      2003                      558,246
      2004                      563,588
      2005                      547,795
      2006                      539,833
      2007                      566,069
      2008                      528,813
Source: Bureau of Transportation Statistics (BTS)
Table 2: Summary of Airline Fees
                   First      Second                         Ticket      Seat
                                               Additional
     Airline     Checked Checked                            Change     Selection
                                                 Bags
                   Bag          Bag                           Fee         Fee
 AirTran                    Yes         Yes       Yes        Yes          Yes
 Alaska                     No          Yes       Yes        Yes          No
 American                   Yes         Yes       Yes        Yes          No
 Continental                Yes         Yes       Yes        Yes          No
 Delta                      Yes         Yes       Yes        Yes          No
 JetBlue                    No          Yes       Yes        Yes          Yes
 Midwest                    Yes         Yes       Yes        Yes          No
 Northwest                  Yes         Yes       Yes        Yes          No
 Southwest                  No          No        Yes        No           No
 Spirit                     Yes         Yes       Yes        Yes          Yes
 United                     Yes         Yes       Yes        Yes          Yes
 US Air                     Yes         Yes       Yes        Yes          Yes
Source: Airline web sites



Figure 15: International Passenger Traffic (Year-Over-Year Change in
Revenue Passenger Miles)
                               Latin          Atlantic         Pacific
First Quarter 2006                      1.1%       -1.6%              4.8%
Second Quarter 2006                     6.9%       4.4%               4.1%
Third Quarter 2006                      1.8%       3.0%               2.4%
Fourth Quarter 2006                     6.6%       4.3%               2.1%
First Quarter 2007                      2.9%       5.8%               2.5%
Second Quarter 2007                     2.9%       5.0%               0.8%
Third Quarter 2007                      8.0%       7.1%               -2.0%
Fourth Quarter 2007                     9.0%       9.7%               2.9%
First Quarter 2008                     10.2%       7.2%               3.1%
Second Quarter 2008                     2.8%       3.5%               2.0%
Third Quarter 2008                     -4.6%       1.1%               1.6%
Fourth Quarter 2008                    -9.8%       -4.3%              -9.7%
Source: Bureau of Transportation Statistics
Figure 16: System-Wide Passenger
Enplanements (in Millions)
                     Number of
     Year         Enplanements
                      (millions)
       2000                    699
       2001                    653
       2002                    641
       2003                    647
       2004                    704
       2005                    739
       2006                    745
       2007                    770
       2008                    741
Source: Bureau of Transportation Statistics


Figure 17: Load Factors for Select
Airlines, Third Quarter 2008
                             Actual
          Airline
                          Load Factor
 Alaska                            79.5%
 American                          82.2%
 Continental                       83.3%
 Delta                             84.9%
 JetBlue                           84.0%
 Northwest                         86.8%
 Southwest                         71.6%
 United                            83.2%
 US Airways                        83.9%
 Average Load Factor               82.2%
 Breakeven Load Factor             89.9%
Source: Department of Transportation – Airline
Quarterly Financial Review
Figure 18: Change in En Route Center Flight Operations versus 2000
             2001 %     2002 %     2003 %    2004 %   2005 %   2006 %   2007 %   2008 %
  Month
             Change     Change     Change    Change   Change   Change   Change   Change

January         5%        -3%         0%       2%       5%       3%       5%        5%
March           -4%       -8%       -10%       0%        0%     -4%      -3%       -1%
March           -2%       -7%        -7%       1%        4%      0%       1%       -2%
April           0%        -3%        -5%       3%       4%       1%       2%        0%
May             -1%       -4%        -7%      -1%       3%       0%       1%       -3%
June            -3%       -4%        -6%       1%        4%      0%       2%       -4%
July            1%        -1%        -2%       3%        4%      1%       3%       -1%
August          0%        -4%        -6%       1%        2%      0%       1%       -7%
September      -16%       -5%        -5%       0%        2%     -1%      -1%      -11%
October         -8%       -4%        -3%       1%       -2%     -1%       0%      -12%
November        -8%       -7%        -4%       2%        0%      1%       2%      -14%
December        -5%       -1%         3%       7%       5%      6%        3%       -9%
Source: Federal Aviation Administration


Figure 19: Year-Over-Year Change in Tower Activity, 2008
versus 2007
                                     General
     Month             Airline                        Military
                                     Aviation
January                          -1%              -2%             -6%
February                          3%               0%              2%
March                            -2%             -10%             -5%
April                            -1%              -2%              8%
May                              -4%             -10%             -8%
June                             -3%             -11%              1%
July                             -2%              -3%             18%
August                           -6%             -11%              1%
September                        -9%              -7%             16%
October                         -10%             -13%             -5%
November                        -13%             -20%             -5%
December                        -10%             -15%             11%
Source: Federal Aviation Administration
Note: Chart presents IFR flight operations
Figure 20: Domestic and International Air Cargo Traffic (Revenue Ton-Miles
in Billions)
                              Domestic Traffic        International Traffic
        Quarter Year        (Revenue Ton-Miles)      (Revenue Ton-Miles)
                                 in billions               in billions
 First Quarter 2007                             5.1              9.5
 Second Quarter 2007                            5.3             10.1
 Third Quarter 2007                             5.3              9.9
 Fourth Quarter 2007                            5.4             10.6
 First Quarter 2008                             4.8              9.6
 Second Quarter 2008                            4.9             10.2
 Third Quarter 2008                             4.7              9.5
 Fourth Quarter 2008                            4.4              8.6
Source: Bureau of Transportation Statistics


Figure 21: Delayed Flights at Major Airports, 2008
versus 2007 and 2002 (in Thousands)
                 2002         2007        2008
    Month       Arrival      Arrival     Arrival
                Delays       Delays      Delays
 January             122,447          183,178         185,557
 February             97,553          192,061         196,320
 March               139,565          197,891         208,194
 April               110,234          169,522         159,058
 May                 114,836          162,256         151,261
 June                127,174          210,491         194,626
 July                124,435          208,996         169,343
 August              113,938          200,996         149,536
 September            82,308          129,931         100,413
 October             108,417          166,019         103,660
 November            102,923          150,635         104,898
 December            144,773          239,932         201,229
Source: Federal Aviation Administration
Figure 22: Change in Rate of Delays at
Three Best and Worst Airports,
Summer 2008 versus Summer 2007
                           Percent
        Airport
                           Change
San Francisco                             6%
 Honolulu                               2%
 Newark                                 0%
 Minneapolis/St. Paul                 -32%
 Pittsburgh                           -32%
 Salt Lake City                       -38%
Source: Federal Aviation Administration


Figure 23: Length of Flight Delays at Major Airports,
2008 versus 2007 and 2002 (in Minutes)
     Month           2002          2007          2008
 January                   44                  52   55
 February                  42                  56   57
 March                     45                  57   57
 April                     45                  54   53
 May                       46                  52   52
 June                      51                  62   60
 July                      49                  59   61
 August                    47                  58   58
 September                 45                  51   51
 October                   42                  52   48
 November                  44                  51   52
 December                  50                  57   61
Source: Federal Aviation Administration
Figure 24: Flight Cancellations at Major Airports, 2008 vs. 2007 and
2002 (in Thousands)
                         2002            2007             2008
      Month
                    Cancellations Cancellations Cancellations
 January                    11,876        16,135         17,245
 February                    6,851        26,786         22,209
 March                       9,034        18,814         17,700
 April                       7,078        12,845         12,599
 May                         7,849         8,472          8,865
 June                       10,721        18,996         13,707
 July                        8,893        15,022         12,891
 August                      7,263        13,844         11,705
 September                   5,680         8,163         12,459
 October                     6,514         9,648          6,672
 November                    5,216         8,664          7,918
 December                   11,638        22,810         21,532
Source: Federal Aviation Administration
